                                      SOCIAL SECURITY
MEMORANDUM

Date:      January 7, 2003                                                   Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Review of the Social Security Administration’s Fiscal Year 2003 Annual Performance
           Plan (A-02-02-12033)


           Attached is a copy of our final report. Our objectives were to determine the extent to
           which the Social Security Administration’s Fiscal Year 2003 Annual Performance Plan
           (APP) (1) responded to prior recommendations made to improve APPs and
           (2) contained indicators that provide decisionmakers useful information and
           meaningfully measure performance.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on our recommendations. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.



                                                              James G. Huse, Jr.

           Attachment
          OFFICE OF
   THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



 REVIEW OF THE SOCIAL SECURITY
ADMINISTRATION’S FISCAL YEAR 2003
   ANNUAL PERFORMANCE PLAN


   January 2003   A-02-02-12033
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      Executive Summary
OBJECTIVE
Our objectives were to determine the extent to which the Social Security
Administration’s (SSA) Fiscal Year (FY) 2003 Annual Performance Plan (APP)
(1) responded to prior recommendations made to improve APPs and (2) contained
indicators that provide decisionmakers useful information and meaningfully measure
performance.

BACKGROUND
The Government Performance and Results Act of 1993 (GPRA) seeks to improve the
efficiency, effectiveness, and management of Federal programs. GPRA established a
framework through which Federal agencies set goals, measure performance, and report
on the extent to which those goals were met. This is accomplished by preparing 5-year
strategic plans, APPs, and annual performance reports.

The APP provides a direct link between strategic goals and agency performance. The
APP identifies the (1) annual performance goals an agency will use to gauge progress
toward accomplishing its strategic goals and (2) performance measures for use in
assessing annual progress. The President’s Management Agenda calls for the
integration of performance review and budget formulation. As part of this integration
process, agencies are being asked to identify high quality outcome measures that will
be used to accurately monitor the performance of programs.

SSA was a pilot agency that developed plans and reports before GPRA was
implemented. SSA submitted its first strategic plan, Keeping the Promise, in FY 1997;
its second, Mastering the Challenge, in FY 2000; and SSA plans to release its third
strategic plan in FY 2003. In February 1998, SSA issued its first APP, which defined
performance indicators and goals for FY 1999. SSA also issued APPs for each year
between FYs 2000 and 2003. SSA developed and reported on performance measures
as early as FY 1991—before GPRA was passed—and began reporting on its
performance goals as part of its annual Accountability Report in FY 1995.

RESULTS OF REVIEW
SSA’s FY 2003 APP responds to suggestions for improvement from previous plans and
reflects SSA’s strong commitment to GPRA and progress toward meeting GPRA’s
objectives. Nevertheless, we believe opportunities exist for SSA to establish indicators
that will provide even more meaningful information to decisionmakers. For instance,
SSA’s APP does not have goals for all management challenges and major initiatives for
which measurable corrective action is possible, and we believe it should include more
outcome-based and service-related measures. The APP also needs more information
to permit an assessment of the nature and reasonableness of certain goals and a basis


Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)                   i
upon which to compare goals and subsequent performance with public expectations.
Further, the APP could display better integration of performance goals and the
budgeted resources needed to achieve them. Additionally, sections within the APP
could be presented in a more efficiently organized and clearer manner.

CONCLUSIONS AND RECOMMENDATIONS
SSA’s FY 2003 APP represents SSA’s strong commitment and progress toward
meeting the objectives of GPRA. The APP responds to many of the concerns about
previous plans. We acknowledge the evolving nature of GPRA reporting and believe
that additional actions can be taken to make future APPs more useful to decisionmakers
and allow better assessment of progress toward world-class service. Specifically, SSA
should provide:

§   Goals for those management challenges and major initiatives for which measurable
    corrective action is possible, such as progress in reducing the Earnings Suspense
    File and monitoring representative payees.

§   Better outcome-based and service-related measures in the areas of 800-number
    waiting time, notice clarity, Social Security number card issuance, validation of
    medical listings, and initial disability claims processing.

§   Information to more fully explain how performance will be measured, such as in the
    cases of the percent of employers rating SSA’s overall service, and the
    implementation of activities necessary to have the software and infrastructure in
    place for electronic processing of hearings and appeals.

§   Information to assess goals and subsequent performance that differ significantly with
    known public expectations, such as in the areas of 800-number performance and
    hearings decisions.

§   Continued commitment to link its budget and performance data as envisioned by the
    President’s Management Agenda and the Office of Management and Budget.

§   A clearer presentation and organization of the APP through increased cross-
    referencing and consolidation of the key objectives section.

AGENCY COMMENTS
SSA generally agreed with all of our recommendations, noting that actions to implement
the recommendations will either be reflected in its FY 2004 APP or taken in the future.
(See Appendix B for SSA's comments.)




Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)                 ii
                                                          Table of Contents
                                                                                                                   Page

INTRODUCTION......................................................................................................... 1

RESULTS OF REVIEW .............................................................................................. 4

    FY 2003 APP Performance Indicators ................................................................... 4

    Goals for Management Challenges........................................................................ 5

    Outcome and Service-Related Measures .............................................................. 6

    Information to Assess the Nature and Reasonableness of Goals.......................... 7

    Link Between Goals and Public Expectations........................................................ 8

    Link Between Planned Performance and Budget .................................................. 9

    Opportunities for Clearer Presentation................................................................... 9

CONCLUSIONS AND RECOMMENDATIONS......................................................... 11

APPENDICES

Appendix A – Summary of the Social Security Administration’s Fiscal Year 2003
             Performance Indicators and Goals

Appendix B – Agency Comments

Appendix C – OIG Contacts and Staff Acknowledgments




Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)
                                                                      Acronyms
 APP               Annual Performance Plan
 CDR               Continuing Disability Review
 DDS               Disability Determination Services
 DI                Disability Insurance
 ESF               Earnings Suspense File
 FY                Fiscal Year
 GAO               General Accounting Office
 GPRA              Government Performance and Results Act
 OASDI             Old-Age, Survivors and Disability Insurance
 OASI              Old-Age and Survivors Insurance
 OHA               Office of Hearings and Appeals
 OIG               Office of the Inspector General
 OMB               Office of Management and Budget
 OQA               Office of Quality Assurance and Performance Assessment
 OSM               Office of Strategic Management
 SSA               Social Security Administration
 SSI               Supplemental Security Income
 SSN               Social Security Number




Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)
                                                                 Introduction
OBJECTIVE
Our objectives were to determine the extent to which the Social Security
Administration’s (SSA) Fiscal Year (FY) 2003 Annual Performance Plan (APP)
(1) responds to prior recommendations made to improve APPs and (2) contains
indicators that provide decisionmakers useful information and meaningfully measure
performance.

BACKGROUND
The Government Performance and Results Act of 1993 (GPRA)1 seeks to improve the
efficiency, effectiveness, and management of Federal programs. GPRA is intended to
shift the focus of Federal decisionmaking, management, and accountability from
activities and processes to the results and outcomes achieved by agency programs.
GPRA established a framework through which Federal agencies set goals, measure
performance, and report on the extent to which those goals were met. Agencies
prepare 5-year strategic plans, APPs, and annual performance reports. The APP
provides a direct link between strategic goals and agency performance. The APP
identifies (1) the annual performance goals an agency will use to gauge progress
toward accomplishing its strategic goals and (2) performance measures for use in
assessing progress.

GPRA specifies the APP’s general content, and the Office of Management and Budget
(OMB)2 issued general guidance and principles to assist agencies in developing APPs.
Generally, the APP should

§     detail the performance goals and indicators for the FY;

§     describe the operational processes, skills, technology, and resources needed to
      meet the goals;

§     align budget resources with performance goals;

§     contain performance information for several FYs;

§     describe how the performance will be verified and validated; and

§     discuss performance-related studies and analyses.

1
    Public Law No. 103-62, § 4(b). 31 U.S.C. § 1115 (2002).
2
 OMB Circular A-11, part 6, § 220, Preparation and Submission of Strategic Plans, Annual Performance
Plans, and Annual Program Performance Reports (2001).


Review of SSA’s FY 2003 Annual Performance Plan (A-02-02-12033)                                        1
In September 1997, SSA released its first strategic plan, Keeping the Promise. In this
plan, SSA established five broad strategic goals to support its mission, each of which
has supporting strategic objectives. The five strategic goals were to

§   promote valued, strong and responsive Social Security programs and conduct
    effective policy development, research and program evaluation;

§   deliver customer-responsive, world-class service;

§   make SSA program management the best in business, with zero tolerance for fraud
    and abuse;

§   be an employer that values and invests in each employee; and

§   strengthen public understanding of the Social Security programs.

SSA was a pilot agency that developed plans and reports before GPRA was
implemented. SSA submitted its first strategic plan, Keeping the Promise, in FY 1997;
its second, Mastering the Challenge, in FY 2000; and SSA plans to release its third
strategic plan in FY 2003. In February 1998, SSA issued its first APP, which defined
performance indicators and goals for FY 1999. SSA also issued APPs for each year
between FYs 2000 and 2003. SSA developed and reported on performance measures
as early as FY 1991—prior to the passage of GPRA—and began reporting on its
performance goals as part of its annual Accountability Report in FY 1995.

As GPRA implementation evolves, increasing emphasis is focused on outcome
measures and tying budget to performance. For instance, the President’s Management
Agenda calls for the integration of performance review and budget formulation. As part
of this integration process, agencies are being asked to identify high quality outcome
measures that will be used to accurately monitor the performance of programs. Further,
OMB Circular A-11, part 6, Preparation and Submission of Strategic Plans, Annual
Performance Plans, and Annual Program Performance Reports, states that
performance indicators should be relevant, measurable objectives against which actual
achievement in program activity can be compared in a quantitative way. Circular A-11
also states that outcome-based goals should be included within an APP, whenever
possible.

SSA’s FY 2003 APP is organized by its five strategic goals, and SSA describes the
activities performed in support of each goal. The APP presents 23 strategic objectives
that support the 5 strategic goals. In support of these objectives, there are 74 specific
performance indicators (see Appendix A) and 14 budgeted workload measures. A
general rationale, as well as baseline performance information, data sources and
background information, are provided for each of the indicators.




Review of SSA’s FY 2003 Annual Performance Plan (A-02-02-12033)                             2
SCOPE AND METHODOLOGY
We reviewed SSA’s draft FY 2003 APP to assess its compliance with GPRA and
guidance from OMB and the General Accounting Office (GAO). Our further evaluation
was based on our previous reports, as well as reports completed for the Office of the
Inspector General (OIG) by PricewaterhouseCoopers LLP and those released by GAO,
the Mercatus Center, and the Social Security Advisory Board. We compared the
FY 2003 APP to the FY 2001 and 2002 APPs to determine the extent to which prior
concerns we3 and GAO4 noted were addressed.

At SSA’s request, we agreed not to issue a formal audit report until after SSA issued its
final FY 2003 APP. We provided comments on a draft of the FY 2003 APP to SSA’s
Office of Strategic Management (OSM) twice during our review. Many of our comments
were incorporated in SSA’s final FY 2003 APP.

We assessed the extent to which the FY 2003 APP performance measures were
comprehensive and appropriate for what they purported to measure. We analyzed the
final FY 2003 APP, issued in April 2002, to determine the extent to which it addressed

§         our comments on the draft FY 2003 APP,
§         the FY 2003 Presidential Management Initiatives,
§         the major management challenges and program risks identified by GAO,5 and
§         the major management challenges we identified.6

We also reviewed a report7 by the Mercatus Center of George Mason University that
analyzed SSA’s FY 2002 Performance and Accountability Report. Further, we
discussed our comments on the final FY 2003 APP with OSM officials.

We conducted our audit at our New York office and SSA Headquarters in Baltimore,
Maryland, between November 2001 and June 2002. The entity audited was OSM,
within the Office of the Commissioner. Our audit was performed in accordance with
generally accepted government auditing standards.


3
 Review of the Social Security Administration’s Fiscal Year 2000 Annual Performance Plan
(A-02-99-03007), November 1999, and Review of the Social Security Administration’s Fiscal Year 2001
Annual Performance Plan (A-02-00-10038), June 2001.
4
 The Results Act: Observations on SSA’s FY 1999 Performance Plan (GAO/HEHS-98-178R), June 1998,
and Observations on the Social Security Administration’s Fiscal Year 1999 Performance Report and FY
2001 Performance Plan (GAO/HEHS-00126R), June 2000.
5
    Major Management Challenges and Program Risks (GAO-01-261), January 2001.
6
 Inspector General Statement on the Social Security Administration’s Major Management Challenges
(A-02-02-12054), December 2001.
7    rd
 3 Annual Performance Report Scorecard: Which Federal Agencies Inform the Public?, Mercatus
Center, George Mason University, May 2002.


Review of SSA’s FY 2003 Annual Performance Plan (A-02-02-12033)                                       3
                                          Results of Review
SSA’s FY 2003 APP responds to suggestions for improvement in previous plans and
reflects SSA’s strong commitment to GPRA and progress toward meeting GPRA’s
objectives. SSA’s FY 2003 APP complies with OMB guidance that the “FY 2003
performance plan should continue expanding the quality and scope of performance
information included in previous annual plans.” The APP describes planned
performance, effectively uses charts and graphs to highlight and clarify information, and
generally indicates how the annual goals support SSA’s strategic goals and objectives.

The FY 2003 APP is an improvement over prior years’ plans and responds to many
prior concerns. However, we believe opportunities exist to establish indicators that
could provide even more meaningful information that would be useful to
decisionmakers. For instance, the APP has neither goals for all management
challenges and major initiatives for which measurable corrective action is possible nor
outcome-based and service-related measures for some indicators. The APP needs
more information to permit an assessment of the nature and reasonableness of certain
goals and a basis on which to compare goals and subsequent performance with public
expectations. A better link between performance goals and the resources needed to
achieve them is also possible. In addition, clearer presentation and organization of the
APP would be helpful.

FY 2003 APP PERFORMANCE INDICATORS

                     The FY 2003 APP lists 74 indicators to measure progress toward
SSA’s FY 2003        achieving SSA’s 23 strategic objectives, which, in turn, support its
APP Responds         5 strategic goals. The presentation has been modified substantially
to Many Prior        from that of prior APPs, makes effective use of charts and graphs,
Concerns             and generally provides a clear picture of what SSA hopes to
                     accomplish and how that relates to furthering its strategic goals.

In our informal comments to SSA’s draft FY 2003 APP, we made numerous suggestions
to increase compliance with OMB guidance—such as inclusion of a capital assets
plan—and for clarity of presentation and refinement of goals. SSA accepted many of
these suggestions. For instance, SSA included a capital assets plan and aligned the
presentation of strategic objectives and corresponding indicators throughout the
document.

SSA’s final FY 2003 APP

§   demonstrates the link between strategic goals, strategic objectives, and annual
    performance indicators and goals;

§   discusses external factors that affect the accomplishment of goals;

§   identifies key indicators;


Review of SSA’s FY 2003 Annual Performance Plan (A-02-02-12033)                             4
§   presents the capital assets plan; and

§   associates budgeted amounts with specific output measures and its strategic goals,
    as applicable.

In addition, SSA added a chart that demonstrates the similarities among the
Commissioner’s priorities; SSA’s five strategic goals; the President’s Management
Agenda; and SSA’s major management challenges as identified by GAO, SSA’s OIG
and the Social Security Advisory Board.

SSA has also increased its use of specific and outcome-based goals. For example, the
FY 2001 APP listed an indicator for the percent of offices with access to interactive
video training and two goals related to management development plans and training.
However, we noted there were no indicators or goals related to training needs for
non-management employees. Further, there were few specifics provided with which to
gauge interim progress in the implementation of the SSA Future Workforce Plan. SSA
addressed these concerns in its FY 2003 APP. For instance, SSA added an indicator
to define competencies and help employees identify the skills they need for various
positions.

GOALS FOR MANAGEMENT CHALLENGES

                  OMB guidance recommends that performance goals be
Some
                  established for management problems, particularly those for which
Management
                  resolution is mission-critical or that could impede the achievement
Challenges
                  of program goals. SSA discussed its approach to resolving the
Need Goals
                  major management challenges identified by GAO, the OIG, and the
                  Senate Committee on Governmental Affairs in part VII of its
FY 2003 APP and refers to specific goals, as appropriate.

While the FY 2003 APP has an informative discussion on the major management
challenges facing SSA, we continue to believe that certain challenges do not have goals
established to measure progress and establish accountability. Below are major
management challenges for which there are no indicators.

§   Reducing the Earnings Suspense File (ESF) has been problematic for SSA, but SSA
    has not established indicators to measure its progress. In fact, a related indicator—
    accuracy of earnings postings—masks this issue by considering a posting to the
    ESF as accurate.

§   The issue of monitoring representative payees—which has been the subject of
    congressional interest and recent negative publicity—was first identified by the OIG
    as a major management challenge in FY 2001. However, this challenge does not
    have an associated performance measure. The APP lists the number of
    representative payee actions as an output measure under budgeted workloads. We



Review of SSA’s FY 2003 Annual Performance Plan (A-02-02-12033)                          5
      previously recommended8 that, at a minimum, representative payee changes and
      representative payee accountings be separately tracked. Further, we believe that a
      measure should be developed that better reflects SSA’s performance to ensure
      timely and accurate representative payee accounting.

OUTCOME AND SERVICE-RELATED MEASURES

SSA Needs              In its assessment of agencies’ FY 2001 performance reports, the
More Outcome-          Mercatus Center noted that performance reports should focus on
Based                  “outcomes” (benefits of programs and activities) rather than on
Measures               programs or activities. It further noted that goals and measures
                       that emphasize agency activities assume that such activities
                       automatically translate into results. Indicators that directly measure
outcome would better reflect SSA’s performance. For instance, as noted by GAO,9 SSA
had not traditionally reported on its progress in returning people with disabilities to work.
Instead, performance indicators that focused on activities designed to assist people to
return to work were established, rather than on the outcome of whether individuals were
actually returning to work.

SSA recognized that its performance measures did not track long-term achievement of
self-sufficiency, and that better measures were needed. SSA began to establish such
measures with its FY 2001 APP. While SSA has developed more outcome-based
measures, additional opportunities exist to create indicators that more directly address
service and measure interim success toward SSA’s strategic goal to deliver world-class
service. For instance:

§     We and GAO have recommended that SSA develop measures for 800-number
      performance that would provide more meaningful information concerning caller
      waiting time, once connected. SSA does not have goals for caller waiting time.
      However, SSA’s customer service standards survey10 stated that a “significant
      majority” of respondents consider service “good” when they are on hold no longer
      than 2.2 minutes.

§     SSA recognizes the public has continually identified the clarity of the Agency’s
      notices as one of the most important aspects of satisfactory service. Further, SSA’s
      over 250 million annual notices have been the subject of many complaints. While
      SSA has various initiatives planned to improve the clarity of its notices, there is no
      indicator to measure progress in this highly visible area.



8
    Performance Measure Review: Review of Representative Payee Actions (A-02-99-01010), March 2000.
9
 Major Management Challenges and Program Risks – Social Security Administration (GAO-01-261),
January 2001.
10
  Customer Service Standards Survey, Office of Quality Assurance and Performance Assessment,
June 21, 2000.


Review of SSA’s FY 2003 Annual Performance Plan (A-02-02-12033)                                   6
§    SSA has had a performance measure—accuracy of Social Security number (SSN)
     issuance—about which we have expressed concerns for what it does not measure.
     For instance, the accuracy rate excludes major categories of errors—such as
     inaccurate names and dates of birth. Given the fact that SSN issuance has become
     a significant concern, SSA may want to re-examine how it measures performance in
     this area.

As previously reported,11 we believe separate measures for the Disability Insurance (DI)
and Supplemental Security Income (SSI) initial disability claims processing would create
greater accountability. Also, OMB has identified developing a validation methodology
for medical listings as a priority management issue for SSA in FY 2003. We continue to
believe it would be valuable to provide interim indicators to measure progress in
validating one or more listings.

Further, rather than goals that solely measure direct processing of claims, calls, and
other activities as outputs, indicators should address the efficiency of these activities.
SSA had planned several new indicators to measure the efficiency of its performance.
For instance, efficiency indicators for Old-Age and Survivors Insurance, SSI and
disability claims, and the issuance of SSNs appeared in the draft FY 2003 APP.
However, these indicators were not included in the final FY 2003 APP.

INFORMATION TO ASSESS THE NATURE AND REASONABLENESS OF GOALS

                         APPs should convey to the reader what an agency hopes to
More Information
                         accomplish with the resources received and how that will further
on What is Being
                         its strategic goals and objectives. Sufficient information to
Measured is
                         understand what is being measured—and how it is measured—
Needed for Some
                         must be provided for an APP to be meaningful. This type of
Goals
                         information was not provided for all of SSA’s goals.

For instance, while the two indicators that measure the percent of employers rating
SSA’s overall service are not new, their measurement appears to be evolving. SSA
notes its estimated performance cannot be generalized to all employers, the survey
methodology will be improved before the FY 2003 survey is conducted, and additional
employer interactions will be measured. More information on exactly what will be
measured would be useful. Similarly, there are detailed goals that support the indicator
“Implement activities necessary to have the software and infrastructure in place for
electronic processing of disability claims.” However, SSA does not explain how
accomplishing each of these detailed goals will bring the Agency closer to the indicator.




11
  Review of the Social Security Administration’s Fiscal Year 2001 Annual Performance Plan
(A-02-00-10038), June 2001.


Review of SSA’s FY 2003 Annual Performance Plan (A-02-02-12033)                              7
LINK BETWEEN GOALS AND PUBLIC EXPECTATIONS

                         Establishing and achieving goals that do not meet the public’s
Reporting Public         expectations can convey an unrealistic view of performance.
Expectations for         Agencies need to ensure their goals are consistent with public
Some Goals               expectations. However, resources and other constraints may
Would Be Useful          hinder SSA’s ability to meet the public’s expectations. When this
                         is the case, the barriers to meeting such goals should be
disclosed. Such information may be important to decisionmakers in establishing
funding priorities. The Message from the Commissioner in the FY 2001 APP noted that
meeting all performance expectations would be heavily dependent on SSA’s receiving
adequate resources and continuing success in automation efforts. This information is
important for budget decisionmakers. To achieve GPRA’s intent, SSA needs to ensure
its goals are realistic in terms of the public’s expectations, and if not, the reasons for
such should be disclosed. With such information, decisionmakers could evaluate the
extent to which the public will be satisfied. GPRA’s intent is not achieved—and
congressional decisionmakers are not provided complete information—if disclosures are
not made concerning the reasonableness and adequacy of the goals.

We have previously recommended that SSA provide a basis upon which to compare
goals and subsequent performance with the public’s expectations.12 In response, SSA
agreed that “There may be value in such comparisons as they affect specific
measures.” SSA also noted that it “Sets goals based on customer interests in
combination with historical experience, benchmarks and investments.” We believe SSA
has met the spirit of our prior recommendation for the payment and service indicators
for the percentage of 800-number calls handled accurately. In this regard, SSA states
“Despite performance below the target, we will retain the 90 percent goal because we
believe it represents good service within the bounds of available resources.” There are
other indicators of service where information on the public’s expectations would be of
value.

SSA has a FY 2003 goal for 94 percent of callers accessing the 800-number within
5 minutes of their first attempt. Actual performance in FY 1999 was 95.8 percent.
However, the results of the Office of Quality Assurance and Performance Assessment’s
(OQA) June 2000 customer service standards survey disclosed that a significant
majority of respondents would consider accessing the 800-number within 2 minutes to
be “good service.” Similarly, SSA had an initial FY 2002 goal to release hearings
decisions within 120 days of the request for 35 percent of the cases, which was
subsequently revised to 20 percent. SSA reduced this to 22 percent within 180 days for
FY 2003. Meanwhile, the OQA survey reported that only 13 percent of the respondents
rated this as “good service.”




12
  Review of the Social Security Administration’s Fiscal Year 2001 Annual Performance Plan
(A-02-00-10038), June 2000.


Review of SSA’s FY 2003 Annual Performance Plan (A-02-02-12033)                             8
LINK BETWEEN PLANNED PERFORMANCE AND BUDGET

Better            In prior APPs, SSA aligned funding with budgeted workloads and
Integration of    performance goals by major functional responsibility. Since goals
Cost and          were not aligned by budget account, the resources, human capital,
Performance       and technology necessary to achieve many performance goals
Needed            were not adequately described. This integration of budget and
                  performance data has been highlighted as a priority by the
President and OMB with the submission of FY 2003 budgets and beyond.

We have previously noted that SSA needs to better link costs with performance.13 In its
FY 2003 APP, SSA acknowledged that costs are specifically aligned with outcome
measures for only a few activities—continuing disability reviews and SSI non-disability
redeterminations. SSA is committed to improving its ability to present a performance
budget that permits direct comparisons between budgeted amounts, outputs, and
outcomes in specific activities.

OPPORTUNITIES FOR CLEARER PRESENTATION

                       The FY 2003 APP is a large document with a wealth of information,
Streamlined
                       not only on SSA’s annual performance goals but its organization,
Presentation of
                       external influences, coordination with other agencies, and budget
the APP
                       information. There are opportunities for clearer presentation
Possible               through the use of cross-referencing and more specific definitions
                       of what is being measured.

For instance, part V of the APP discussed—in over 30 detailed pages—SSA’s key
strategic objectives and key performance indicators. Further, part VI discussed—in
over 40 pages—all of SSA’s strategic objectives and performance indicators. SSA
opted for this organization so the most important indicators are highlighted for those
who do not want to read the entire document. We agree it is useful to highlight key
indicators. However, key indicators could be listed in a table with a cross-reference to
the section where all indicators are discussed in detail. This organization would reduce
redundancy and streamline the presentation.

Similarly, in response to our comments on the draft FY 2003 APP, SSA included a chart
of high-priority areas and challenges. This chart displays the similarities among the
Commissioner’s priorities, SSA’s five strategic goals, the President’s Management
Agenda, the President’s budget, GAO’s concerns, and our list of major management
challenges. This chart provides the reader perspective on the range of issues that SSA
must address, as well as the similarities among the issues raised by the various parties.




13
  Review of the Social Security Administration’s Fiscal Year 2001 Annual Performance Plan
(A-02-00-10038), June 2001.


Review of SSA’s FY 2003 Annual Performance Plan (A-02-02-12033)                             9
However, cross-referencing these issues to the performance goals that address them
would inform the reader even further on the extent to which SSA has established
performance goals for each of the issues.




Review of SSA’s FY 2003 Annual Performance Plan (A-02-02-12033)                      10
                                          Conclusions and
                                          Recommendations
GPRA is intended to increase agency accountability through a program of strategic
planning, establishment of annual goals, and reporting of annual performance against
those goals. GPRA implementation will be an evolving process as agencies continue to
develop outcome-based measures and enhance the systems and processes that
produce credible performance data. SSA’s FY 2003 APP represents SSA’s strong
commitment and progress to meet GPRA’s objectives. The APP responds to many of
the concerns about previous plans. Acknowledging the evolving nature of GPRA
reporting, we believe additional action can be taken to make future performance plans
more useful to decisionmakers and permit better assessment of SSA’s progress toward
world-class service. Specifically, SSA should provide:

1. Goals for those management challenges and major initiatives for which measurable
   corrective action is possible, such as progress in reducing the ESF and monitoring
   representative payees.

2. Better outcome-based and service-related measures in the areas of 800-number
   waiting time, notice clarity, SSN card issuance, validation of medical listings, and
   initial disability claims processing.

3. Information to more fully explain how performance will be measured, such as in the
   cases of the percent of employers rating SSA’s overall service, and the
   implementation of activities necessary to have the software and infrastructure in
   place for electronic processing of hearings and appeals.

4. Information to assess goals and subsequent performance that differ significantly with
   known public expectations, such as in the areas of 800-number performance and
   hearings decisions.

5. Continued commitment to link its budget and performance data as envisioned by the
   President’s Management Agenda and OMB.

6. A clearer presentation and organization of the APP through increased cross-
   referencing and consolidation of the key objectives section.

AGENCY COMMENTS
SSA generally agreed with all of our recommendations, noting that actions to implement
the recommendations will either be reflected in its FY 2004 APP or taken in the future.
In response to Recommendation 1, SSA plans to include performance indicators




Review of SSA’s FY 2003 Annual Performance Plan (A-02-02-12033)                           11
in its FY 2004 APP on the reduction of the ESF, and, if current activities are successful,
the timeliness and accuracy of representative payee accounting could be measured in
the future.

SSA agreed in principle with Recommendation 2. Specifically, SSA noted that (1) the
definition of accuracy for SSN card issuance will be modified in FY 2004, (2) new 800-
number performance metrics are being developed, (3) a more global measure for notice
clarity may be developed after biennial surveys of notice recipients are begun in
FY 2004, and (4) interim efficiency measures will be considered after SSA develops
management information systems capable of measuring efficiency. However, SSA
does not believe performance measures are necessary for (1) tracking progress in
implementing a validation methodology for medical listings or (2) measuring initial DI
and SSI disability claims processing separately.

In response to Recommendation 3, SSA agreed that explaining how its performance is
measured can be improved, and the definitions for measuring employer satisfaction and
electronic processing of hearings and appeals should be refined.

SSA acknowledged that gaps sometimes exist between public expectations and SSA’s
annual performance targets and stated it will consider Recommendation 4. SSA also
agreed that it should continue its commitment to linking its budget and performance
data. As evidence of this commitment, SSA stated it is developing a new Budget
Formulation and Execution System to strengthen the link between funding and
performance. Finally, SSA agreed that a clearer presentation and organization of the
APP should be developed and indicated that it has already taken steps to streamline the
FY 2004 APP to focus on Agency priorities and challenges. (See Appendix B for SSA's
comments.)

OIG RESPONSE

We are pleased that SSA generally agreed with our recommendations and that it has
already taken or will take actions to reflect our recommendations in its FY 2004 APP.
SSA’s planned actions to develop new measures and definitions to monitor and publicly
report on the reduction of the ESF, representative payee program, 800-number, notice
clarity, SSN card issuance accuracy, and the efficiency of its programs and operations
will result in better outcome-based and service-related measures and greater
accountability. However, we still believe SSA should develop a measure to report its
interim progress on the development of a validation methodology for medical listings
since its development has been continually delayed and OMB has identified it as a
priority for FY 2003. We also continue to believe SSA should separately report
performance for initial DI and SSI disability claims processing to increase accountability
over these important service functions.




Review of SSA’s FY 2003 Annual Performance Plan (A-02-02-12033)                         12
                                                       Appendices




Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)
                                                                           Appendix A
Summary of the Social Security Administration’s
Fiscal Year 2003 Performance Indicators and Goals
STRATEGIC GOAL I: TO DELIVER CITIZEN-CENTERED, WORLD-CLASS SERVICE

 Strategic Objective 1: By 2004 and beyond, have 9 out of 10 people who do
 business with the Social Security Administration (SSA) rate the overall service
 as “good,” “very good,” or “excellent,” with most rating it “excellent.”
                 Performance Indicator                               Goal
 Percent of people who do business with SSA rating 82 percent
 the overall service as “excellent,” “very good,” or
 “good”
 Percent of people who do business with SSA rating 30 percent
 the overall service as “excellent”
 Percent of employers rating SSA’s overall service      94 percent
 during interactions with SSA as “excellent,” “very
 good,” or “good”
 Percent of employers rating SSA’s overall service      33 percent
 during interactions with SSA as “excellent”
 Percent of callers who successfully access the         94 percent
 800-number within 5 minutes of their first call
 Percent of callers who get through to the              87 percent
 800-number on their first attempt
 Percent of 800-number calls handled accurately –       95 percent
 payment
 Percent of 800-number calls handled accurately –       90 percent
 service
 Percent of public with an appointment waiting          85 percent
 10 minutes or less
 Strategic Objective 2: By 2005, make 67 percent of the public’s interactions with
 SSA, including citizen-initiated services, available either electronically via the
 Internet or through automated telephone service, and provide the public
 interacting with SSA on the Internet with the option of communicating with an
 SSA employee while online.
                 Performance Indicator                               Goal
 Percent of the public’s interactions with SSA,         40 percent
 including citizen-initiated services, available either
 electronically via the Internet or through automated
 telephone service
 Activities to establish the capability for the public  Testing and proof of concept will
 interacting with SSA on the Internet to communicate continue.
 with an SSA employee while online



Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)              A-1
 Strategic Objective 3: Increase electronic access to information needed to serve
 the public. Specifically by 2005:
 · Establish electronic access to human services and unemployment
      information with 90 percent of States;
 · Establish electronic access to vital statistics and other material information
      with 50 percent of States; and
 · Increase electronic access to information held by other Federal agencies,
      financial institutions and medical providers.
                  Performance Indicator                              Goal
 Percent of States with which SSA has electronic      75 percent
 access to human services and unemployment
 information
 Percent of States with which SSA has electronic      26 percent
 access to vital statistics and other material
 information
 Milestones/deliverables demonstrating progress in    1. Finalize California electronic
 increasing electronic access to information held by     medical evidence
 other Federal agencies, financial institutions and      implementation plan based
 medical providers                                       on the results of our testing
                                                         with the California American
                                                         Medical Association and add
                                                         additional pilot sites.
                                                      2. Begin project to have third-
                                                         party vendor work with
                                                         financial institutions, contract
                                                         with a vendor and conduct a
                                                         pilot to test the business
                                                         case.
 Strategic Objective 4: Maintain the accuracy, timeliness, and efficiency of
 service to people applying for Old-Age and Survivors Insurance (OASI) and
 Supplemental Security Income (SSI) aged benefits. Specifically by 2005, have
 the capacity to take and process 99 percent of OASI and SSI aged claims in a
 paperless environment.
                  Performance Indicator                              Goal
 Percent of OASI claims processed by the time the     88 percent
 first regular payment is due or within 14 days from
 the effective filing date, if later
 Percent of SSI aged claims processed by the time     75 percent
 the first payment is due or within 14 days of the
 effective filing date, if later
 Implement activities necessary to have the software 1. Develop an automated
 and infrastructure in place for paperless processing    system to pay cases
 of OASI and SSI aged claims                             involving attorneys; and
                                                      2. Complete analysis of
                                                         additional SSI windfall offset
                                                         enhancements.

Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)              A-2
 Strategic Objective 5: Improve the accuracy, timeliness, and efficiency of service
 to people applying for Disability Insurance (DI) and SSI disability benefits.
 Specifically by 2005:
 · Increase the accuracy of initial disability claims decisions to deny benefits to
      95 percent;
 · Maintain the accuracy of initial disability claims decisions to allow benefits at
      96.5 percent;
 · Issue initial disability claims decisions in an average of 105 days, with at
      least 70 percent issued within 120 days; and
 · Have the capacity to process 99 percent of disability claims in an electronic
      environment.
                   Performance Indicator                              Goal
 Percent of initial disability claims decisions issued After analysis of baseline data, a
 within 120 days                                       goal will be developed.
 Initial disability claims average processing time     110 days
 (days)
 Disability Determination Service (DDS) allowance      97 percent
 performance accuracy rate
 DDS Net allowance accuracy rate (effective 2002)      98 percent
 DDS denial performance accuracy rate                  93.5 percent
 DDS Net denial accuracy rate (effective 2002)         96.2 percent
 Implement activities necessary to have the software 1. Procure hardware/software
 and infrastructure in place for electronic processing    for paperless business
 of disability claims                                     process infrastructure.
                                                       2. Enhance the front-end
                                                          interview process to support
                                                          all types of disability claims.
                                                       3. Prepare statements of work
                                                          for DDS legacy system
                                                          vendors to interface with the
                                                          electronic folder and support
                                                          paperless claims processing.
                                                       4. Develop training
                                                          plans/materials and
                                                          procedures to implement the
                                                          paperless business process.
 Strategic Objective 6: Improve the accuracy, timeliness, and efficiency of service
 to people requesting hearings or appeals. Specifically by 2005:
  · Increase current levels of accuracy of hearings decisions to 90 percent;
  · Issue hearings decisions in an average of 166 days, with at least 70 percent
     issued within 180 days;
  · Increase productivity to 122 hearings decisions issued per workyear;
  · Have the capacity to take 99 percent of hearings requests in an electronic
     environment;
  · Issue decisions on appeals of hearings within an average of 90 days, with at
     least 70 percent issued within 105 days; and
  · Increase productivity to 323 Appeals Council reviews per workyear.

Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)              A-3
                  Performance Indicator                Goal
 Percent of hearing decisions issued within 180 days 22 percent
 from the date the request is filed
 Hearings average processing time (days)               330 days
 Office of Hearings and Appeals (OHA) decisional       90 percent
 accuracy rate
 Implement activities necessary to have the software Migrate OHA applications to
 and infrastructure in place for electronic processing SSA’s programmatic
 of hearings and appeals                               architecture.
 Number of hearings cases processed per workyear 102
 Percent of decisions on appeals of hearings issued 40 percent
 by the Appeals Council within 105 days of the
 appeals filing date
 Average processing time for decisions on appeals      144 days
 of hearings issued (days)
 Number of decisions on appeals of hearings issued 287
 per workyear
 Strategic Objective 7: By 2007, increase by 100 percent from 1999 levels, the
 number of DI and SSI disability beneficiaries who achieve steady employment
 and no longer receive cash benefits.
                  Performance Indicator                               Goal
 Percent increase in the number of DI adult worker     10 percent
 beneficiaries entering an extended period of          11,578
 eligibility due to earnings from work
 Percent increase in the number of SSI disabled        10 percent
 beneficiaries earning at least $700 per month,        87,822
 whose payments are eliminated because of work
 Activities to implement provisions of the Ticket-to-  1. Continue to broaden the
 Work and Self-Sufficiency Program and other              availability of work incentive
 employment strategies                                    specialists to disability
                                                          beneficiaries nationwide.
                                                       2. Distribute tickets to
                                                          beneficiaries in remaining
                                                          Phase 2 and 3 States.




Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)              A-4
                Performance Indicator                              Goal
 Percent increase in the number of DI beneficiaries  Long-term FY 2007 goal:
 whose benefits are suspended or terminated due to 100 percent increase over
 substantial gainful activity                        FY 1999 baseline
 Percent increase in the number of SSI disabled      Long-term FY 2007 goal:
 beneficiaries, aged 18-64, who no longer receive    100 percent increase over FY
 cash benefits and have earnings over the            1999 baseline
 substantial gainful activity level
 Strategic Objective 8: Improve or maintain the accuracy, timeliness, and
 efficiency of processing post-entitlement events. Specifically by 2005, have the
 capacity to take and process 99 percent of post-entitlement actions in a
 paperless environment.
                Performance Indicator                              Goal
 Old-Age, Survivors and Disability Insurance         90 percent
 (OASDI) Post-entitlement automation rate
 SSI Post-entitlement automation rate                76 percent
 Strategic Objective 9: Maintain through 2005 the accuracy, timeliness, and
 efficiency of service to people applying for Social Security numbers (SSN) and
 replacement cards.
                Performance Indicator                              Goal
 Percent of original and replacement SSN cards       97 percent
 issued within 5 days of receiving all necessary
 documentation
 Percent of SSNs issued accurately                   99.8 percent

STRATEGIC GOAL II: TO ENSURE THE INTEGRITY OF SOCIAL SECURITY
PROGRAMS, WITH ZERO TOLERANCE FOR FRAUD AND ABUSE

 Strategic Objective 10: Beginning 2002, and through 2005, maintain at
 99.8 percent the overpayment and underpayment accuracy based on
 non-medical factors of eligibility of OASDI payment outlays.
               Performance Indicator                               Goal
 Percent of OASDI payment outlays “free” of           99.8 percent
 overpayments and underpayments (based on non-        99.8 percent
 medical factors of eligibility)
 Strategic Objective 11: By 2005, raise to 96 percent the overpayment accuracy
 based on non-medical factors of eligibility of SSI disabled and aged payment
 outlays.
               Performance Indicator                               Goal
 SSI overpayment and underpayment accuracy rates 94.7 percent
 including both preventable and unpreventable         98.8 percent
 errors (based on non–medical factors of eligibility)
 SSI overpayment and underpayment accuracy rates 95.4 percent
 excluding unpreventable errors (based on non–
 medical factors of eligibility)


Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)         A-5
 Strategic Objective 12: To become current with DI and SSI Continuing Disability
 Review (CDR) requirements by FY 2002 and remain current thereafter.
               Performance Indicator                               Goal
 Percent of multi-year CDR Plan completed through N/A
 FY 2002
 Percent of CDRs completed when due and               Maintain 100 percent currency
 selectable beginning in FY 2003
 Strategic Objective 13: Maintain timeliness and improve accuracy and efficiency
 in posting earnings data to Agency records. Specifically by 2005, increase to
 70 percent the number of employee reports filed electronically.
               Performance Indicator                               Goal
 Percent of wage items posted to individuals’ records 98 percent
 by September 30th
 Percent of earnings posted correctly                 99 percent
 Percent of employee reports filed electronically     48 percent
 Strategic Objective 14: Through 2005, maintain a level of outstanding debt that is
 either in a repayment agreement, under appeal, or newly detected.
               Performance Indicator                               Goal
 Outstanding OASDI debt NOT in a collection           47 percent
 arrangement (excluding due process)
 Outstanding SSI debt NOT in a collection             43 percent
 arrangement (excluding due process)
 Strategic Objective 15: Aggressively deter, identify, and resolve fraud.
               Performance Indicator                               Goal
 Number of investigations conducted (i.e., closed)    9,200
 OASDI dollar amounts reported from investigative     $60 million
 activities
 SSI dollar amounts reported from investigative       $120 million
 activities
 Number of judicial actions reported                  3,500

STRATEGIC GOAL III: TO STRENGTHEN PUBLIC UNDERSTANDING OF SOCIAL
SECURITY PROGRAMS

 Strategic Objective 16: By 2005, 9 out of 10 Americans (adults age 18 and over)
 will be knowledgeable about Social Security programs in three important areas:
 · Basic program facts;
 · Value of Social Security programs; and
 · Financing Social Security programs.
                Performance Indicator                            Goal
 Percent of public who are knowledgeable about Social 78 percent
 Security issues
 Percent of individuals issued SSA-initiated Social       100 percent
 Security Statements as required by law




Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)        A-6
STRATEGIC GOAL IV: TO BE AN EMPLOYER THAT VALUES AND INVESTS IN
EACH EMPLOYEE

 Strategic Objective 17: To recruit, develop, and retain a diverse well-qualified
 workforce with the capacity to perform effectively in a changing future
 environment. Specifically, by 2005:
 · Develop and implement innovative tools and techniques for recruitment and
    hiring;
 · Use authorized flexibilities to attract and retain a highly qualified and diverse
    workforce; and
 · Continue to enhance quality of worklife opportunities for all employees.
                Performance Indicator                                 Goal
 Increase the retention rate of new hires             Increase the retention rate
                                                      through the use of competency-
                                                      based tools.
 Continue to implement the SSA Future Workforce       Implement actions by target
 Plan                                                 dates specified in the Agency’s
                                                      Future Workforce Plan.
 Strategic Objective 18: To provide the necessary tools, training and continuous
 learning opportunities to maintain a highly skilled and high-performing
 workforce. Specifically, by 2005:
 · Provide online training electronically at the desktop to all employees;
 · Have one-third of all employees participating in job enrichment opportunities
    during each year;
 · Provide 70 percent of employees the necessary competency-based training
    needed to maintain technical skills each year; and
 · Provide 70 percent of employees the competency-based tools needed to
    obtain training and skills needed to enhance their job performance and
    develop their careers.
                Performance Indicator                                 Goal
 Develop, test and implement desktop video            Implement desktop video and
 nationally                                           training in 33 percent of field
                                                      offices if the prototype is
                                                      successful and funding is
                                                      available.
 Percent of offices with direct access to Interactive 98 percent
 Video Teletraining
 Number of job enrichment opportunities in formal     Continue Advanced Leadership
 management development programs                      Program, Leadership
                                                      Development Program,
                                                      Presidential Management Intern
                                                      support and select Senior
                                                      Executive Service Candidate
                                                      Program participants.




Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)          A-7
              Performance Indicator                                  Goal
 Define competencies for technical training and      1. Define competencies for
 career development and make them available for           Teleservice Center and OHA
 employee use                                             technical training positions
                                                     2. Make competency-based
                                                          tools available to
                                                          30,000 users
 Strategic Objective 19: To provide a physical environment that promotes the
 health and well-being of every employee.
               Performance Indicator                                 Goal
 Percent of employees who are satisfied with overall N/A – The first goal will be
 physical environment, i.e., it is professional,     established for FY 2004 after an
 accessible, safe, and secure                        initial SSA-wide employee
                                                     survey provides a baseline in
                                                     FY 2002

STRATEGIC GOAL V: TO PROMOTE VALUED, STRONG, AND RESPONSIVE
SOCIAL SECURITY PROGRAMS AND CONDUCT EFFECTIVE POLICY
DEVELOPMENT, RESEARCH AND PROGRAM EVALUATION

 Strategic Objective 20: Promote policy changes, based on research, evaluation
 and analysis that shape the OASI and DI programs in a manner that takes
 account of future demographic and economic challenges, provides an adequate
 base of economic security for workers and their dependents, and protects
 vulnerable populations.
                 Performance Indicator                            Goal
 Identification, development and utilization of    Update the barometer measures
 appropriate barometer measures for assessing the  and prepare analysis
 effectiveness of OASDI programs
 Preparation of analyses and reports on            Prepare analyses on the
 demographic, economic, and international trends   following topics:
 and their effects on OASDI programs               · The balance between benefit
                                                       adequacy and individual
                                                       equity;
                                                   · The relationship between
                                                       Social Security and the
                                                       economy;
                                                   · Work and earnings as they
                                                       relate to Social Security;
                                                   · Role of pensions and wealth
                                                       in providing retirement
                                                       security; and
                                                   · Social Security reforms in
                                                       other countries.




Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)           A-8
               Performance Indicator                                   Goal
 Preparation of research and policy analyses           Prepare analyses on the
 necessary to assist the Administration and            distributional and fiscal effects of
 Congress in developing proposals to reform and        reform proposals developed by
 modernize the OASDI programs                          the Administration, Congress
                                                       and other policymakers.
 Strategic Objective 21: Promote policy changes based on research, evaluation
 and analyses that shape the SSI program in a manner that protects vulnerable
 populations, anticipates the evolving needs of SSI populations, and integrates
 SSI benefits with other benefit programs to provide a safety net for aged, blind,
 and disabled individuals.
                 Performance Indicator                                 Goal
 Identification, development and utilization of        Update barometer measures
 barometer measures for assessing effectiveness of and prepare analysis.
 the SSI program
 Preparation of a report and completion of data        Conduct analyses using
 collection on the National Survey of SSI Children     baseline survey data on
 and Families                                          characteristics of SSI children
                                                       with disabilities.
 Strategic Objective 22: Promote policy changes based on research, evaluation
 and analyses that shape the disability program in a manner that increases
 self-sufficiency and takes account of changing needs, based on medical,
 technological, demographic, job market and societal trends.
                 Performance Indicator                                 Goal
 Preparation of a research design to develop           Report on the status of
 techniques for validating medical listings            developing a validation
                                                       methodology.
 Preparation of reports on results of the National     Report on the status of the main
 Study on Health Activity                              study data collection.
 Preparation of analyses of alternative return-to-work Report on the design and
 strategies                                            implementation of evaluations
                                                       and demonstration projects.
 Strategic Objective 23: Provide information for decision-makers and others on
 the Social Security and SSI programs through objective and responsive
 research, evaluation, and policy development.
                 Performance Indicator                                 Goal
 Percent of users assigning a high rating to the       1. Recommendations are made
 quality of SSA’s research and analysis products in        for improving the satisfaction
 terms of accuracy, reliability, comprehensiveness,        measurement system; and
 and responsiveness                                    2. A contract is awarded in
                                                           FY 2003 to conduct the
                                                           second round of the
                                                           satisfaction survey in
                                                           FY 2004.
 Percent of major statistical products that are timely Produce major statistical
                                                       products on schedule.


Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)                A-9
                                                                           Appendix B

Agency Comments




Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)
                                         SOCIAL SECURITY
MEMORANDUM


Date:      December 17, 2002                                                    Refer To:   S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Review of the Social Security
           Administration's (SSA) Fiscal Year (FY) 2003 Annual Performance Plan (APP)" A-02-02-12033


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Staff questions may be referred to Laura Bell on extension 52636.

           Attachment:
           SSA Response




           Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)                   B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "REVIEW OF THE SOCIAL SECURITY ADMINISTRATION'S (SSA)
FISCAL YEAR (FY) 2003 ANNUAL PERFORMANCE PLAN (APP)" A-02-02-12033


Thank you for the opportunity to comment on the draft report. We are pleased that your review
found that our FY 2003 APP addressed many of the previous concerns and suggestions for
improvement. We are also pleased with your conclusion that the APP reflects our strong
commitment to the Government Performance and Results Act, such as the inclusion of a capital
assets plan, the association of budgeted amounts with specific output measures and strategic
goals and the increase in outcome-based measures.

FY 2004's performance plan will address some of the concerns highlighted in your report.
Also, as evidenced by changes in APP’s from year to year, we constantly evaluate and modify
the measures, and note that while some measures are added and others are taken out, we continue
to track some of the previous measures internally and use that data in the day-to-day
management of the workloads.

Below are our responses to the specific recommendations, and we are also providing technical
comments that should be included in the final report.

Recommendation 1

SSA should provide goals for those management challenges and major initiatives for which
measurable corrective action is possible, such as progress in reducing the Earnings Suspense File
and monitoring representative payees.

SSA Comment

While the FY 2003 APP does not contain specific measures for the management challenges for
the Earnings Suspense File (ESF) and for monitoring representative payees, we do include an
informative discussion of our means and strategies for both of them. Information regarding the
specific items cited is as follows:

       Earnings Suspense File

       We plan to include performance indicators for reducing the size of the ESF in our fiscal
       year (FY) 2004 APP and the new Strategic Plan.

       Representative Payee Management

       We have activities underway to ensure the timeliness and accuracy of representative
       payee actions, however, we are not yet prepared to set a new measure. We have an
       internal plan to establish an ongoing integrity review program for the payee accounting
       process that will permit us to assess both the accuracy and timeliness of the payee
       accounting process. In addition, we implemented a three-phase pilot to evaluate the



Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)                       B-2
       representative payee program. The first two phases dealt with the capability
       determination process and the change in payee process, and have been completed. The
       third and final phase is intended to test the feasibility of an ongoing integrity review
       program. If successful, and implemented nationally, it will allow us to measure the
       timeliness and accuracy of representative payee accounting.

Recommendation 2

SSA should provide better outcome-based and service-related measures in the areas of 800-
number waiting time, notice clarity, Social Security Number (SSN) card issuance, validation of
medical listings, and initial disability claims processing.

SSA Comment

We agree in principle that we should continue to strive to develop better outcome-based and
service-related measures. We also recognize that outcomes and desired results can be
demonstrated through collective activities that are often output-type measures. Information
regarding the specific items cited is as follows:

       800 Number Waiting Times

       We are in the process of developing new 800-number performance metrics that should
       help us better measure waiting times for national 800-number callers. The new metrics
       should be in place within 2 years.

       Notice Clarity

       We have conducted consumer satisfaction surveys on notices in the past, and we now
       regularly conduct focus groups to assess notice quality. In addition, we are obtaining
       baseline information about public understanding of notices that the General Accounting
       Office has identified as particularly problematic, as opposed to developing a global
       measure of notice clarity. We anticipate that our evaluation of the clarity of the first two
       notices to be evaluated (title II benefit adjustment letters and title XVI award notices) will
       provide a more meaningful basis for assessing SSA’s progress in achieving notice
       improvements. We may develop a more global measure in the future when we survey
       current beneficiaries and applicants on a biennial basis as part of the Service Expectations
       phase of SSA’s Service Delivery Feedback Program which is currently slated for FY
       2004.

       SSN Card Issuance and Accuracy

       During the past year, we completed an extensive review of enumeration processes and
       documentation requirements as a basis for strengthening the accuracy of our enumeration
       database and of the SSN cards issued to the public. As a result, not only have we
       tightened requirements for issuing cards and developed collateral verification processes
       for many documents, but we have also established a more stringent performance measure.



Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)                         B-3
       Also, beginning in July of 2002, we expanded the end-of-line review to include the
       independent verification of documentation with the issuing source. Beginning in FY
       2004, the definition of "accurate case" will be modified to take into account the recently
       implemented collateral verification requirements, and the definition of critical error will
       now consider whether the applicant was entitled to receive the SSN based on supporting
       documentation. In FY 2003, we will report on critical errors using both the current and
       new definitions.

       Medical Listings

       We are reviewing the research plan to determine a validation methodology that will
       provide accurate measurement, however, we do not believe that it is necessary to
       establish a performance measure to track the progress at this time.

       Initial Disability Claims Processing

       We continue to believe that a combined processing measure should be used for disability
       claims processing and maintain that combining Supplemental Security Income (SSI) and
       Disability Insurance (DI) disability claims processing in no way compromises
       accountability. In the APP, we include performance measures appropriate for external
       audiences and will continue, as we have in the past, to monitor internally separate
       measures for SSI and DI claims processing and we are able to provide this information to
       external monitoring authorities if requested to do so. Regarding efficiency measures, the
       management information systems needed to provide efficiency data are not yet in place.
       We are in the process of developing such a system. In the interim, we will consider
       alternative measures that move us in the right direction and meet the intent of the
       recommendation.

Recommendation 3

SSA should provide information to more fully explain how performance will be measured, such
as in the cases of the percent of employers rating SSA’s overall service, and the implementation
of activities necessary to have the software and infrastructure in place for electronic processing
of hearings and appeals.

SSA Comment

We agree that we can do a better job explaining what is being measured and how it is measured.
In developing our FY 2004 APP, we reassessed our slate of performance measures to determine
if they are still relevant, if they are accurately defined and if they represent the Agency’s
priorities. Information regarding the specific items cited is as follows:

       Employer Satisfaction




Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)                        B-4
       As the audit report states on page 7, the methodology for measuring the indicators related
       to employer satisfaction is evolving. In developing our FY 2004 APP, we are reassessing
       our slate of performance measures to determine if they are still relevant, if they are
       accurately defined and if they represent the Agency’s priorities. We have expanded the
       FY 2003 survey to include an additional 800 number employers can call for technical
       assistance with certain specialized issues, however, we have not yet determined what
       other types of employer interactions might be suitable or feasible to measure.

       Finally, we would like to note that we are considering eliminating the two performance
       indicators of employer satisfaction in future performance plans, given the relatively
       narrow scope of this population and its interactions with SSA.

       Electronic Processing of Hearings and Appeals

       We agree that a better description is needed on how performance will be measured for
       implementing activities to put into place the software and infrastructure for electronic
       processing of hearings and appeals, and will work to refine that information for the next
       iteration of the APP.

Recommendation 4

SSA should provide information to assess goals and subsequent performance that differ
significantly with known public expectations, such as in the areas of 800-number performance
and hearings decisions.

SSA Comment

We acknowledge that sometimes gaps exist between what the public determines as “good
service” and our annual performance targets and agree that we can do a better job explaining the
barriers to meeting the public’s expectations. We will consider this recommendation as we
continue our efforts to refine the APP and specific indicators.

Recommendation 5

SSA should continue its commitment to link its budget and performance data as envisioned by
the President’s Management Agenda and the Office of Management and Budget.

SSA Comment

We agree that we should provide a continued commitment to link our budget and performance
data as envisioned by the President’s Management Agenda. We are committed to improving our
ability to present a performance budget that permits direct comparisons between budgeted
amounts, outputs and related outcomes in specific activities. We have undertaken a major
initiative that will be implemented in phases over the next few years to revamp our management
information and cost accountability systems to provide full cost data for workloads.




Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)                      B-5
Concurrently, we are developing a new Budget Formulation and Execution System which will
build off these updated systems and enable SSA to integrate information on variables such as
workloads, workyears and goals and to strengthen the linkage between funding and performance.


Recommendation 6

SSA should develop a clearer presentation and organization of the APP through increased cross-
referencing and consolidation of the key objectives section.

SSA Comment

We agree with the assessment that there are opportunities for clearer presentation and more
specific definitions of what is being measured. We recognized this and have already taken steps
to streamline our FY 2004 APP to focus on Agency priorities and challenges, rather than on the
full complement of all the Agency’s work. This approach in no way diminishes the internal and
ongoing monitoring of those workloads and activities not included in the APP.




Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)                    B-6
                                                                           Appendix C
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Director, Northern Audit Division (617) 565-1819

   Timothy F. Nee, Deputy Director, (212) 264-5295

Staff Acknowledgments

In addition to those names above:

   John Harrison, Senior Auditor


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-02-02-12033.




Review of SSA’s Fiscal Year 2003 Annual Performance Plan (A-02-02-12033)
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Management Analysis and Audit Program Support Staff, OFAM
Inspector General
Assistant Inspector General for Investigations
Assistant Inspector General for Executive Operations
Assistant Inspector General for Audit
Deputy Assistant Inspector General for Audit
 Director, Data Analysis and Technology Audit Division
 Director, Financial Audit Division
 Director, Southern Audit Division
 Director, Western Audit Division
 Director, Northern Audit Division
 Director, General Management Audit Division
Team Leaders
Income Maintenance Branch, Office of Management and Budget
Chairman, Committee on Ways and Means
Ranking Minority Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman, Subcommittee on Social Security
Ranking Minority Member, Subcommittee on Social Security
Majority Staff Director, Subcommittee on Social Security
Minority Staff Director, Subcommittee on Social Security
Chairman, Subcommittee on Human Resources
Ranking Minority Member, Subcommittee on Human Resources
Chairman, Committee on Budget, House of Representatives
Ranking Minority Member, Committee on Budget, House of Representatives
Chairman, Committee on Government Reform and Oversight
Ranking Minority Member, Committee on Government Reform and Oversight
Chairman, Committee on Governmental Affairs
Ranking Minority Member, Committee on Governmental Affairs
Chairman, Committee on Appropriations, House of Representatives
Ranking Minority Member, Committee on Appropriations,
 House of Representatives
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman, Committee on Appropriations, U.S. Senate
Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate
Chairman, Committee on Finance
Ranking Minority Member, Committee on Finance
Chairman, Subcommittee on Social Security and Family Policy
Ranking Minority Member, Subcommittee on Social Security and Family Policy
Chairman, Senate Special Committee on Aging
Ranking Minority Member, Senate Special Committee on Aging
President, National Council of Social Security Management Associations,
  Incorporated
Treasurer, National Council of Social Security Management Associations,
  Incorporated
Social Security Advisory Board
AFGE General Committee
President, Federal Managers Association
Regional Public Affairs Officer
                     Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
